CERTIFICATE OF COMPLIANCE
Case Nos. 19-251 and 19-255
Captions: Americans for Prosperity Foundation v.
Xavier Becerra I Thomas More Law Center
v. Xavier Becerra
As required by . Supreme Court Rule 33. l(h),
I certify that the document contains 6,687 words,
excluding the parts of the document that are
exempted by Supreme Court Rule 33. l(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on March 1, 2021

Record Press, Inc.

Sworn to before me on
March 1, 2021
ALESSANDRA KANE
Notary Public, State of New York
No. 01KA6340521
Qualified in Richmond County

m

Notary Public

